1a

APPENDIX

{00104473;2}

2a
DISTRICT COURT OPINION
John J. HURRY, et al., Plaintiffs,
v.
FINANCIAL INDUSTRY REGULATORY
AUTHORITY INCORPORATED, et al., Defendants.
No. CV-14-02490-PHX-ROS
Signed 08/05/2015
Attorneys and Law Firms
Peter Alex Silverman, Robert A. Mandel, Taylor C.
Young, Mandel Young PLC, Phoenix, AZ, for
Plaintiffs.
George Ian Brandon, Sr., Gregory Alan
Davis, Gregory Sumner Schneider, Squire Patton
Boggs (US) LLP, Phoenix, AZ, for Defendants.
ORDER
Honorable Roslyn O. Silver, Senior United States
District Judge
The Financial Industry Regulatory Authority
(“FINRA”) and Scott M. Andersen seek dismissal of all
claims asserted by John and Justine Hurry and their
related companies. The allegations in the complaint
establish the claims either are barred by absolute
immunity or fail on other grounds. Therefore, all
claims will be dismissed with very limited leave to
amend.
BACKGROUND
Greatly simplified, the facts alleged in the amended
complaint are as follows. John and Justine Hurry

{00104473;2}

3a
(“Hurrys”) are “successful entrepreneurs who own or
operate several businesses in Arizona, Montana,
Nevada, Utah, and California.” (Doc. 37 at 3). Two of
those businesses are Scottsdale Capital Advisors
Corporation
(“SCA”)
and
Alpine
Securities
Corporation (“Alpine”). Both SCA and Alpine are
registered broker-dealers and members of FINRA. As
described by the Ninth Circuit, “FINRA is a selfregulatory organization that has the authority to
exercise comprehensive oversight over all securities
firms that do business with the public.” Goldman,
Sachs & Co. v. City of Reno, 747 F.3d 733, 737 (9th
Cir. 2013) (quotation marks and citation omitted).
FINRA's authority also extends to certain individuals
associated with securities firms. Thus, because SCA
and Alpine were FINRA members, FINRA had
unquestioned authority to regulate and investigate
SCA and Alpine. And based on their relationship to
SCA and Alpine, FINRA also had some degree of
regulatory authority over the Hurrys.*
On November 12, 2012, employees of FINRA
conducted a “surprise onsite examination” of SCA at
its headquarters in Scottsdale. (Doc. 37 at 15). That
examination was led by Defendant Andersen, a
FINRA employee. (Doc. 37 at 16). At that time, SCA's
headquarters were located in “Suite 6” of a building
owned by Scottsdale Partners, “one of the Hurrys'
several real estate businesses.” (Doc. 37 at 11).
Scottsdale Partners is not a member of FINRA. Suite

It is unclear whether both of the Hurrys were members of
FINRA as of November 2012. It appears at least John Hurry
was a member. (Doc. 63 at 6 n.4).
*

{00104473;2}

4a
6 included numerous individual offices leased by
different companies, all of which shared a common
reception area. The office of Plaintiff Investment
Services Corporation (“ISC”) was located “in Suite 6—
specifically, the northwest corner office of Suite 6.”
(Doc. 37 at 12).
Upon arriving at Suite 6, “Andersen or a member of
his team” presented an SCA employee with a formal
request demanding “immediate access to inspect and
copy ... information in the possession, custody, or
control of [SCA] and its subsidiaries, affiliates,
predecessor corporations, principals, employees, and
any other affiliated persons.” (Doc. 37 at 17). In
connection with this request, Andersen demanded an
SCA employee unlock the ISC office so the
“examination team [could] enter the premises, seize
the ISC Computers, access the ISC Computers, and
create ‘mirror images’ of the ISC Computers in their
entirety.” (Doc. 37 at 19). Under duress, the ISC office
was unlocked and FINRA staff seized the ISC
computers. (Doc. 37 at 20-21).
In connection with seizing the ISC computers, a
FINRA employee provided a letter to “SCA's
representatives” stating SCA could provide a list of
any “electronic record” on the ISC computers that
SCA believed was private or unrelated to
SCA. FINRA would review that list and, without
examining the listed records, either delete or
segregate them. (Doc. 37 at 18).
The ISC computers seized by FINRA contained
“hundreds of gigabytes” of information. It is
undisputed that SCA and the Hurrys used the ISC

{00104473;2}

5a
computers in conducting business related to SCA.
Thus, the ISC computers contained some “SCArelated material” even though the complaint hints
that the vast majority of information on the ISC
computers was not related to SCA. (Doc. 37 at 19). At
any rate, FINRA seized the ISC computers, made
copies of all the material contained on them, and
returned them a few days later. (Doc. 37 at 21)
(stating ISC was deprived of the computers “for at
least five days”).
After the seizure and copying of the computers, SCA
and FINRA were unable to agree on how much of the
information copied from the ISC computers FINRA
was entitled to access. SCA believed it was
unreasonable to require it to identify the individual
records FINRA was entitled to examine. Based on
that, FINRA agreed SCA could submit a list of “search
terms” which would be used to identify the private or
non-SCA records. SCA argued that method was also
unreasonable and proposed the copies of the ISC
computers be turned over to a third-party who could
“extract any SCA books and records.” (Doc. 37 at 24).
FINRA rejected that proposal and, eventually, SCA
provided a list of search terms. FINRA rejected many
of the proposed search terms, apparently believing
they were too broad. That is, FINRA believed the
proposed search terms would exclude records FINRA
was entitled to review.
Approximately four months after the seizure of the
ISC computers, the parties were still arguing about
FINRA's right to access the information copied from
the computers. On March 8, 2013, ISC filed suit in this
court alleging the seizure and copying of its computers
violated the Computer Fraud and Abuse Act, 18

{00104473;2}

6a
U.S.C. § 1030. (Doc. 37 at 27-28). ISC did not serve
that complaint but did send copies of it to FINRA and
Andersen. Around the time ISC filed its complaint,
FINRA and Andersen began to engage “in a pattern of
escalating harassment” against the Hurrys and their
companies. (Doc. 37 at 28). That harassment included
FINRA denying an application by Alpine to offer
additional financial services, FINRA employees
inducing the Nevada Secretary of State to issue
subpoenas to the Hurrys for business records, and
FINRA employees making false insinuations while
interviewing employees of the Hurrys' companies.
(Doc. 37 at 30). FINRA and Andersen also “conspired
to leak non-public, confidential, and misleading
information to a reporter for a newsletter distributed
on the internet.” (Doc. 37 at 35). That reporter later
published stories about FINRA's investigation into
SCA as well as negative information regarding SCA's
business practices. Those stories allegedly led other
financial institutions to close bank accounts held by
SCA, Alpine, and the Hurrys. It is unclear whether
this alleged harassment impacted ISC's desire to
pursue its suit, but the record does not show any effort
by ISC to prosecute its claims and the suit was
eventually dismissed for failure to prosecute.
After the foregoing events, the Hurrys and twentyseven of their related companies filed this suit,
asserting fourteen claims for relief. The complaint is
sixty-three pages long and contains over 350
paragraphs. The complaint recounts the events
described above and asserts claims based on FINRA
and Andersen illegally seizing and accessing the ISC
computers, leaking information to a reporter, and

{00104473;2}

7a
disclosing private information. FINRA and Andersen
seek dismissal of all claims under a variety of theories.
ANALYSIS
The motion to dismiss presents two types of
arguments.
First,
FINRA
and
Andersen
(“Defendants”) argue the Court lacks subject matter
jurisdiction over all claims asserted by the Hurrys—
and only the Hurrys—because the Hurrys did not
exhaust their administrative remedies before filing
suit. And second, Defendants argue all of the claims,
from all of the plaintiffs, fail to state plausible claims
for relief.
I. Subject Matter Jurisdiction
Defendants' first argument is that the Court lacks
subject matter jurisdiction over all claims asserted by
the Hurrys because the Hurrys did not pursue their
administrative remedies before filing suit. As noted
earlier, “FINRA is a self-regulatory organization”
responsible for regulating securities firms and the
firms' associated persons. Goldman, Sachs & Co. v.
City of Reno, 747 F.3d 733, 737 (9th Cir. 2013). In its
regulatory capacity, FINRA has the ability to initiate
disciplinary proceedings against firms and associated
persons by issuing a complaint. See FINRA Rules
9211, 9212. Once FINRA initiates disciplinary
proceedings, any entity or individual named in the
complaint must follow FINRA's procedures for
contesting the claims. Those procedures involve an
initial hearing and, eventually, appeal of an adverse
decision to the Securities and Exchange Commission
(“SEC”). FINRA Rules 9311, 9370. Only after the SEC

{00104473;2}

8a
resolves such an appeal can an aggrieved entity or
individual proceed to court, and then only to the
applicable United States Court of Appeals. 15 U.S.C.
§ 78y(a). It is undisputed that individuals involved in
FINRA disciplinary proceedings must exhaust this
administrative process before filing suit. See Charles
Schwab & Co. Inc. v. Fin. Indus. Regulatory Auth.
Inc., 861 F. Supp. 2d 1063, 1069 (N.D. Cal.
2012) (discussing
administrative
exhaustion
requirement). But what is missing from the FINRA
Rules, as well as Defendants' briefing, is evidence that
aggrieved entities or individuals can initiate the
administrative process on their own behalf.
According to Defendants, the Hurrys skipped the
required administrative process and filed this suit
prematurely. But despite submitting multiple briefs
on the topic of administrative exhaustion, Defendants
have
not
clearly
explained
what available administrative process the Hurrys
skipped before filing this suit. At present, there is no
disciplinary proceeding pending against the Hurrys
involving the events at issue in this suit. And, based
on the arguments presented by Defendants, the
Hurrys lack the ability to initiate any administrative
process. As courts have stressed in other contexts, an
administrative exhaustion requirement depends on
an
administrative
process
actually
being
†
available. Defendants have not cited, and the Court
See, e.g., Barboza v. California Ass'n of Prof'l Firefighters, 651
F.3d 1073, 1076 (9th Cir. 2011) (“As a general rule, an ERISA
claimant must exhaust available administrative remedies
before bringing a claim in federal court.”); Albino v. Baca, 747
F.3d 1162, 1168 (9th Cir. 2014) (“The PLRA mandates that
inmates exhaust all available administrative remedies ....”).
†

{00104473;2}

9a
has not located, any case where a suit was dismissed
for failure to exhaust administrative remedies when
no administrative process was pending and the
plaintiffs lacked the ability to start the administrative
process. Accordingly, the request to dismiss the
Hurrys' claims based on an alleged failure to exhaust
administrative remedies will be denied.‡
II. Claims Either Barred by Immunity or Not
Plausible
In addition to arguing the Court lacks subject matter
jurisdiction over the Hurrys' claims, Defendants also
argue the complaint does not state plausible claims for
relief under Federal Rule of Civil Procedure 12(b)(6).
Defendants' arguments under Rule 12(b)(6) address
the claims from the Hurrys and all of their related
companies (collectively, “Plaintiffs”). Unfortunately,
neither the complaint nor the motion to dismiss
differentiates amongst the twenty-nine plaintiffs. The
Court's analysis will follow suit and lump Plaintiffs
together even though it appears likely that only some

Defendants hint that the administrative process could have
been exhausted if SCA had refused to provide the requested
information during the November 12, 2012 raid. (Doc. 62 at 4).
That refusal may have led to FINRA formally initiating a
disciplinary proceeding where the Hurrys could have raised
their grounds for refusing to produce the information.
Defendants cite no authority accepting this type of argument
and, in any event, the Court must deal with the facts as they
are, not a hypothetical set of facts. Under the undisputed facts,
the Hurrys cannot now initiate the administrative process and,
therefore, they have no available administrative remedy which
they can be faulted for failing to pursue.
‡

{00104473;2}

10a
of the claims could possibly be brought by certain
subsets of individuals or entities.§
A. Standard for Motion to Dismiss
“To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true”
and viewed in the light most favorable to the
nonmoving party, “to state a claim to relief that is
plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (quotation omitted). Under this standard,
“[a] claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw
the reasonable inference that the defendant is liable
for the misconduct alleged.” Id. This does not require
“detailed factual allegations,” but it does require
“more than an unadorned, the-defendant-unlawfullyharmed-me accusation.” Id. This is not a “probability
requirement,” but a requirement that the factual
allegations show “more than a sheer possibility that a
defendant has acted unlawfully.” Id.
B. Defendants' Immunity
Defendants claim they are entitled to absolute
immunity for eight of the fourteen claims in the
complaint. Plaintiffs disagree, primarily arguing
absolute immunity does not apply when, as here, some
For example, the complaint appears to assert a claim for
defamation on behalf of a variety of companies controlled by the
Hurrys. The complaint does not, however, provide any
indication how those companies have a plausible claim for
defamation. That is, the complaint contains no allegations
connecting the alleged defamatory statements to each of the
named companies.
§

{00104473;2}

11a
of the plaintiffs were not members of FINRA and not
directly subject to FINRA's authority. In support of
this argument, Plaintiffs proffer hypotheticals
involving the outer reach of absolute immunity. While
interesting, those hypotheticals are largely beside the
point because this case involves very straightforward
actions by Defendants exercising their regulatory
power.
As a self-regulatory organization registered under the
Securities Exchange Act of 1937, FINRA “supervises
the conduct of its members under the general aegis of
the SEC.” Sparta Surgical Corp. v. Nat'l Ass'n of Sec.
Dealers, Inc., 159 F.3d 1209, 1210 (9th Cir. 1998). As
explained by the Ninth Circuit, Congress viewed this
system of “self-regulation with strong SEC oversight”
as preferable to “a pronounced expansion of the
SEC.” Id. at 1213. Thus, while FINRA is a private
party, Congress granted FINRA “quasi-governmental
power[ ]” to act in a regulatory capacity. Id. As a
consequence of being granted such power, FINRA is
entitled to “immunity from suit” whenever it is acting
in its “quasi-governmental capacity.” Id. at 1214. In
other words, FINRA “has [absolute] immunity when
acting in an adjudicatory, prosecutorial, arbitrative or
regulatory capacity.” Id. And this immunity “admits
of no exceptions: if the action [being challenged was]
taken under the aegis of the Exchange Act's delegated
authority, [FINRA] is protected by absolute immunity
from money damages.” P'ship Exch. Sec. Co. v. Nat'l
Ass'n of Sec. Dealers, Inc., 169 F.3d 606, 608 (9th Cir.
1999) (quotation omitted).
An important feature of this absolute immunity is
that, according to the Ninth Circuit, it is derived from

{00104473;2}

12a
sovereign immunity principles.** See Sparta, 159
F.3d at 1214 (quoting Barbara v. New York Stock
Exch., Inc., 99 F.3d 49, 59 (2d Cir. 1996)). As a private
corporation FINRA “does not share in the SEC's
sovereign immunity.” Barbara, 99 F.3d at 59. But
FINRA's “special status and connection to the SEC”
means it is entitled to an absolute immunity similar
to what the SEC itself would enjoy. Id. Under this
approach, “the identity of the plaintiff is not
material. DL Capital Grp., LLC v. Nasdaq Stock Mkt.,
Inc., 409 F.3d 93, 99 (2d Cir. 2005). Instead, the
immunity analysis turns on the nature of the action
being challenged. If the complained-of acts were taken
in connection with FINRA exercising its quasigovernmental powers, absolute immunity applies,
regardless of whether the plaintiffs were FINRA
members. See id.
Another important feature of the absolute immunity
recognized by the Ninth Circuit is that its logic
extends to cover the actions of FINRA employees. The
immunity applies whenever a particular action is
“taken under the aegis of the Exchange Act's
delegated authority.” P'ship Exch. Sec. Co., 169 F.3d
at 608. And given that FINRA can only take actions
through its employees, FINRA employees can also
invoke this absolute immunity. See, e.g., Standard
The Court notes the Ninth Circuit's conflation of “absolute
immunity” with “sovereign immunity” is confusing and there
are substantial reasons to question the soundness of the Ninth
Circuit's approach. See Rohit A. Nafday, From Sense to
Nonsense and Back Again: SRO Immunity, Doctrinal Bait-andSwitch, and A Call for Coherence, 77 U. Chi. L. Rev. 847, 865-66
(2010) (noting Ninth Circuit's adoption of sovereign immunity
was problematic).
**

{00104473;2}

13a
Inv. Chartered, Inc. v. Nat'l Ass'n of Sec. Dealers, Inc.,
637 F.3d 112, 115 (2d Cir. 2011) (“There is no question
that an SRO and its officers are entitled to absolute
immunity from private damages suits in connection
with
the
discharge
of
their
regulatory
responsibilities.”). Hence, Andersen is absolutely
immune for action taken when he was “exercising
quasi-governmental powers.” Sparta, 159 F.3d at
1214.
Plaintiffs disagree with this analysis, in particular the
idea that Defendants can be immune from suit by nonmembers. However, Plaintiffs do not cite any Ninth
Circuit authority questioning the expansive reach of
Defendants' absolute immunity. Instead, Plaintiffs
posit a number of hypotheticals meant to illustrate
the allegedly absurd scope of the absolute immunity
Defendants invoke. For example, Plaintiffs question
whether Defendants' absolute immunity would apply
to a FINRA employee involved in a traffic accident.
Plaintiffs also question whether FINRA or a FINRA
employee would be absolutely immune for
“accidentally—or intentionally—start[ing] a fire in
ISC's offices while ... copying the hard drives.” (Doc.
66 at 10). These hypotheticals are interesting but
ultimately unconvincing. A brief diversion into one of
the hypotheticals shows why.
Assuming for a moment Defendants had burned down
ISC's offices, an attempt to invoke absolute immunity
might present a close question. If the fire occurred
when Defendants were exercising their quasigovernmental powers, absolute immunity may bar
that suit, even though doing so would appear unjust.
Of course, absolute immunity often bars recovery in
seemingly unjust ways. See, e.g., Broam v. Bogan, 320

{00104473;2}

14a
F.3d 1023, 1030 (9th Cir. 2003) (“A prosecutor is also
absolutely immune from liability for the knowing use
of false testimony at trial.”).
That being said, the idea that absolute immunity
would
bar
a
claim
based
on
Defendants intentionally burning down ISC's offices
is far-fetched. Absolute immunity only extends to
Defendants' actions taken in their quasigovernmental capacity. It is hard to see how
intentionally burning down Plaintiffs' buildings could
ever be deemed an exercise of Defendants' quasigovernmental powers. That is, burning buildings is
probably not an acceptable way to supervise and
regulate the securities industry. Thus, even under the
expansive scope of absolute immunity Plaintiffs fear,
Defendants likely could be sued for intentionally
burning down ISC's offices.
In the end, Plaintiffs' hypotheticals merely distract
from the question actually presented by the eight
claims which Defendants assert are barred by
immunity. That question is: was the investigation,
seizure, and copying of ISC's computers connected to
the legitimate exercise of Defendants' regulatory
power? In other words, was the seizure of the
computers connected to Defendants acting in their
“adjudicatory, prosecutorial, arbitrative or regulatory
capacity”? Sparta, 159 F.3d at 1214. If the seizure was
so connected, claims based on the seizure are barred
by absolute immunity. Looking to the allegations in
the complaint, Claims I, II, III, IV, V, VI, and XIII are,
in fact, barred by absolute immunity.

{00104473;2}

15a
Claims I and II allege violations of the Computer
Fraud and Abuse Act, Claim III alleges a trespass
upon chattel, Claim IV alleges “intrusion upon
seclusion,” Claim V alleges “conversion,” Claim VI
alleges misappropriation of trade secrets, and Claim
XIII alleges “deprivation of constitutional rights.” As
best as can be determined from the complaint, all of
these claims are based on Defendants seizing and
accessing the ISC computers. But as admitted in the
complaint, the seizure and access of the computers
were directly related to the investigation of SCA,
Alpine, and the Hurrys. Put in terms of the absolute
immunity case law, Defendants' actions were “taken
under the aegis of the Exchange Act's delegated
authority.” P'ship Exch. Sec. Co. v. Nat'l Ass'n of Sec.
Dealers, Inc., 169 F.3d 606, 608 (9th Cir. 1999).
Therefore, Claims I, II, III, IV, V, VI, and XIII are
barred by absolute immunity.
The only close question is whether Claim IX, alleging
defamation, is also barred by absolute immunity.
Claim IX appears to be based on two different types of
statements. First, Defendants allegedly made
defamatory
statements
during
investigatory
interviews of SCA's employees. And second,
Defendants allegedly made defamatory statements to
a reporter. The statements during interviews of SCA's
employees were made in direct connection with the
investigation of SCA, Alpine, and the Hurrys.
Therefore, they are barred by absolute immunity. The
statements to a reporter, however, do not appear to
have been in furtherance of any legitimate
investigatory or regulatory goal. Thus, the portion of
the defamation claim based on statements to a
reporter is not barred by absolute immunity.

{00104473;2}

16a

All aspects of Claims I, II, III, IV, V, VI, and XIII are
barred by absolute immunity as is the portion of
Claim IX based on statements during investigatory
interviews. The portion of Claim IX based on
statements to a reporter is not barred. The remaining
claims—Claims VII, VIII, X, XI, XII, and XIV—as well
as the surviving portion of Claim IX, must be analyzed
on their merits.
C. Prima Facie Tort
Claim VII asserts a claim under Arizona law for
“prima facie tort.” Because the complaint is structured
such that all the factual allegations are incorporated
into each substantive claim, it is not clear which facts
allegedly support Plaintiffs' claim for “prima facie
tort.” But regardless of this flaw, the Arizona Court of
Appeals has noted “Arizona has not adopted” a “prima
facie tort” theory of liability. Lips v. Scottsdale
Healthcare Corp., 214 P.3d 434, 440 (Ariz. Ct. App.
2009), aff'd in part, vacated in part, 229 P.3d 1008
(2010). Plaintiffs do not cite any Arizona authority
recognizing this type of claim. Therefore, the claim
will be dismissed. Cf. Cervantes v. Countrywide Home
Loans, Inc., 656 F.3d 1034, 1043 (9th Cir.
2011) (holding “plaintiffs choosing the federal forum
... [are] not entitled to trailblazing initiatives under
[state law]”) (quotations omitted).

D. Violation of Privacy Act

{00104473;2}

17a
Claim VIII alleges Defendants violated the Privacy
Act, 5 U.S.C. § 552a, by disclosing certain
information. But FINRA is a private corporation and
does not qualify as an “agency” as that term is defined
by the Privacy Act. Lucido v. Mueler, No. 08-15269,
2009 WL 3190368, at *7 (E.D. Mich. Sept. 29,
2009) (“FINRA is not ‘agency’ for purposes of the
[Privacy] Act.”). It is also clear that the Privacy Act
does not allow suit against individuals, especially
private parties. See Hewitt v. Grabicki, 794 F.2d 1373,
1377 n.2 (9th Cir. 1986) (“The weight of authority is
that the [Privacy Act's] authorization of suit only
against an ‘agency’ thereby excludes individual
officers and government employees.”). The Privacy
Act claim will be dismissed.
E. Statements to Reporter
Claim IX is a claim for defamation, Claim XI is a claim
for public disclosure of private facts, and Claim XII is
a claim for “false light.” All three of these claims are
based on Defendants making statements to a
reporter.†† Those statements allegedly led to the
reporter publishing articles containing unflattering
information regarding Plaintiffs. All three of these
claims fail for similar reasons.
The defamation and false light claims can be analyzed
together. A plausible defamation claim requires
allegations of a publication, that is false, which
“bring[s] the defamed person into disrepute,

As mentioned earlier, the only allegations regarding
defamation not barred by absolute immunity involve
Defendants' communications with a reporter.
††

{00104473;2}

18a
contempt, or ridicule” or “impeach[es] plaintiff's
honesty, integrity, virtue, or reputation.” Godbehere
v. Phoenix Newspapers, Inc., 783 P.2d 781, 787 (Ariz.
1989). And a plausible false light claim requires
allegations showing Defendants “knowingly or
recklessly published false information or innuendo
about [Plaintiffs] that a reasonable person would find
highly offensive.” Hart v. Seven Resorts Inc., 947 P.2d
846, 854 (Ariz. Ct. App. 1997). Under both of these
claims, identifying the false statement at issue is the
most basic requirement.
The
complaint
does
not
clearly
identify
any false statement made by Defendants. Rather than
identify the particular statements at issue, Plaintiffs'
response to the motion to dismiss merely points to
paragraphs 176-220 of the complaint as “alleg[ing] in
detail the defamatory statements.” (Doc. 66 at 13, 22).
But having read paragraphs 176-220, those
paragraphs contain no clear identification of false
statements made by Defendants. Instead, those
paragraphs deal with the content of articles written
by reporter Bill Meagher. The most relevant
paragraphs identify false statements by Meagher, not
false statements by Defendants. (Doc. 37 at ¶¶ 198,
200, 209). While Meagher's articles may have been
passing along false statements made by Defendants,
there are no factual allegations establishing that
chain of communication. Merely alleging a factual
scenario where Meagher might have learned the
information from Defendants—but it is equally
possible he learned the information from elsewhere—

{00104473;2}

19a
is not enough.‡‡ See Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (“Where a complaint pleads facts that are
merely consistent with a defendant's liability, it stops
short of the line between possibility and plausibility of
entitlement to relief.”) (quotation omitted). The
defamation and false light claims must be dismissed.
Finally, a plausible claim for public disclosure of
private facts requires allegations that Defendants
gave “publicity to a matter concerning the private life”
of Plaintiffs and the publicity of that matter “would be
highly offensive to a reasonable person” and “is not of
legitimate concern to the public.” Restatement
(Second) of Torts § 652D. As with almost all of
Plaintiffs' claims, the factual basis for this claim is
impossible to divine from the complaint itself.§§ But

The complaint recognizes that some of the information may
have been “leaked” by the SEC. (Doc. 37 at 40) (noting one
“article mentions information that would only be known to
FINRA, SEC, and SCA”). There are no facts establishing how
Plaintiffs know the information provided to the reporter
actually came from Defendants and not the SEC or an SCA
employee.
‡‡

Claims for defamation and false light must be based on a
false statement while a claim for public disclosure of private
facts must be based on a true statement. The complaint,
however, seems to use the same statements in support of all
three of these claims. While Federal Rule of Civil Procedure
8 allows pleading in the alternative, that does not appear to
have been Plaintiffs' intent. Instead, the complaint seems to
allege some of the leaks consisted of false information and other
leaks consisted of true information, but there is no clear
explanation of which is which. Absent some explanation or
differentiation, it is unnecessarily confusing for Plaintiffs to
base claims on the leaks being both true and false.
§§

{00104473;2}

20a
based on Plaintiffs' opposition to the motion to
dismiss, this claim is based on very particular
portions of the alleged leaks to Meagher. Defendants
are alleged to have disclosed the fact that an
“unannounced FINRA examination of SCA” occurred
and that FINRA had requested “personal notes of SCA
employees.” (Doc. 37 at 40-41).
Plaintiffs cite no authority establishing these types of
disclosure would be “highly offensive to a reasonable
person.” Restatement (Second) of Torts § 652D. More
importantly, Plaintiffs do not dispute that the
existence of FINRA's investigation into SCA qualified
as of legitimate concern to the public. Accordingly, the
public disclosure claim fails.
F. Interference with Contractual Relations
Claim X alleges intentional interference with
contractual relations. There are almost no factual
allegations setting forth the nature of this
interference. That is, the complaint makes a general
claim that Defendants “pressur[ed] banking
institutions to terminate or refuse banking
relationships” with Plaintiffs. (Doc. 37 at 58). But the
complaint does not state who specifically exerted that
“pressure,” when it occurred, and what was said.
Based on the parties' briefing, it appears this claim is
based on the information contained in Meagher's
reports. For example, the complaint alleges one bank
account was closed due to the “leaked information
appearing [in] the December 6, 2013” article by

{00104473;2}

21a
Meagher. (Doc. 37 at 43). These allegations, along
with the similar allegations regarding other
publications by Meagher, are not sufficient to state a
plausible claim of intentional interference with
contractual relations.
A claim for intentional interference with contractual
relations requires allegations that Plaintiffs had
contractual relationships with third parties,
Defendants knew of those relationships, and
Defendants intentionally induced or caused the third
parties
to
breach
or
terminate
those
relationships. Miller v. Hehlen, 104 P.3d 193, 202
(Ariz. Ct. App. 2005). The complaint alleges Plaintiffs
had relationships with various banks and that
Defendants knew of those relationships. However, the
complaint does not allege any facts establishing
Defendants induced or caused the banks to terminate
their relationships with Plaintiffs. The theory of the
complaint appears to be that Defendants leaked
information to Meagher, Meagher published that
information, the banks read Meagher's reports, and
the banks decided to terminate their relationship with
Plaintiffs.
This
theory
is
not
supported
by facts plausibly
showing
Defendants
leaked
information to Meagher with the intention of
“inducing or causing” the banks to terminate their
relationships with Plaintiffs. Miller v. Hehlen, 104
P.3d 193, 202 (Ariz. Ct. App. 2005) (noting
“intentional interference inducing or cause a breach”
is element of claim). Absent such allegations, the
claim for intentional interference with contractual
relations must be dismissed.

{00104473;2}

22a
G. Conspiracy
Finally, Claim XIV alleges a “conspiracy to violate
civil rights” under 42 U.S.C. § 1985(2). That statute
prohibits entities and individuals from conspiring to
deter “any party or witness ... from attending court, or
from testifying to any matter pending therein.” 42
U.S.C. § 1985(2). According to the complaint, the
conspiracy at issue consisted of Defendants
“intentionally access[ing] information” on the ISC
computers to “intimidate and deter” Plaintiffs from
prosecuting the suit ISC filed on March 8, 2013. The
conspiracy also entailed Defendants disclosing
information in retaliation for Plaintiffs filing the
March 8, 2013 suit. This claim has many problems
but, most importantly, it fails under the
intracorporate conspiracy doctrine.
“[T]he intracorporate conspiracy doctrine ... bars a
claim for conspiracy where the allegation is that an
entity conspired with its employees ....” Donahoe v.
Arpaio, 869 F. Supp. 2d 1020, 1074 (D. Ariz. 2012).
While the Ninth Circuit has not specifically applied
this doctrine in the context of a claim under § 1985(2),
lower court authority in the Ninth Circuit, as well as
other Courts of Appeals, establishes the doctrine bars
such claims. See, e.g., Hoefer v. Fluor Daniel, Inc., 92
F. Supp. 2d 1055, 1059 (C.D. Cal. 2000) (discussing
circuit split). The Court will follow those courts and
apply the doctrine to § 1985(2). As Plaintiffs'
allegation is that FINRA conspired with Andersen, its
employee, the intracorporate conspiracy doctrine bars
this claim.

{00104473;2}

23a
III. Leave to Amend
The Court must grant leave to amend if it appears
Plaintiffs might be able to correct the defects set forth
above. Lopez v. Smith, 203 F.3d 1122, 1130 (9th Cir.
2000). At present, it appears unlikely Plaintiffs will be
able to amend their complaint to state plausible
claims connected to the access and seizure of the ISC
computers. Such claims are very likely barred by
absolute immunity. But Plaintiffs may have
additional facts that, if pled, will show Defendants
actions were outside an exercise of their regulatory
authority. Thus, Plaintiffs will be allowed to amend
the claims that, at present, are barred by absolute
immunity.
The claim for “prima facie tort,” however, is not
recognized under Arizona law and additional
allegations would be futile. Additional allegations
supporting the Privacy Act claim would also be futile
in that Defendants are not governmental actors.
Finally, the conspiracy claim is fatally flawed
pursuant to the intracorporate conspiracy doctrine
and cannot be cured by amendment. Therefore, leave
to amend these claims would be inappropriate.
Finally, Plaintiffs may be able to allege additional
facts to make plausible their defamation, false light,
public disclosure, and intentional interference with
contractual relations claims. Therefore, Plaintiffs will
be granted leave to amend these four claims.
Accordingly,
IT IS ORDERED the Motion to Dismiss for Lack of
Jurisdiction and Motion to Dismiss for Failure to
State a Claim (Doc. 46) is GRANTED IN
PART and DENIED IN PART.

{00104473;2}

24a
IT IS FURTHER ORDERED if Plaintiffs wish to file
an amended complaint in compliance with the
instructions above, they must do so no later than
August 21, 2015. The Clerk of Court is directed to
enter a judgment of dismissal with prejudice in the
event no amended complaint is filed by that date.
IT IS FURTHER ORDERED the Motion for Leave
to Take Discovery (Doc. 56) is DENIED.
Dated this 5th day of August, 2015.

{00104473;2}

25a
NINTH CIRCUIT OPINION
United States Court of Appeals, Ninth Circuit.
John J. HURRY et al., Plaintiffs-Appellants,
v.
FINANCIAL INDUSTRY REGULATORY
AUTHORITY, INC. (FINRA), a Delaware
corporation; Scott M. Anderson, DefendantsAppellees.
No. 18-15748
Argued and Submitted July 12, 2019 Portland,
Oregon
FILED July 29, 2019
Attorneys and Law Firms
Joseph G. Adams, Carlie Tovrea, Snell & Wilmer
L.L.P., Phoenix, AZ, Dilan A. Esper, Esquire,
Attorney, Jordan Susman, Attorney, Harder LLP,
Beverly Hills, CA, for Plaintiffs-Appellants John J.
Hurry, Justine Hurry, Investment Services
Corporation, Scottsdale Capital Advisors Partners,
LLC
Joseph G. Adams, Carlie Tovrea, Snell & Wilmer
L.L.P., Phoenix, AZ, Jordan Susman, Attorney,
Harder LLP, Beverly Hills, CA, for PlaintiffsAppellants
Hurry
Family
Revocable
Trust,
Investment Services Partners, LLC, SCAP I, LLC,
SCAP II, LLC, SCAP III, LLC, SCAP 4, LLC, SCAP 6,
LLC, SCAP 7, LLC, SCAP 8, LLC, SCAP 9, LLC,
SCAP 10, LLC, BRICFM, LLC, CJ3, LLC, Association

{00104473;2}

26a
of Securities Dealers, LLC, SCAP 5, LLC, Investment
Services Capital, LLC, Investment Services Holdings
Corporation, Newconmgt, LLC, ISC, LLC, ISHC,
LLC, Newmgt, LLC, SCAINTL, LLC, FLJH, LLC,
ASD Holding Company, LLC, Hurry Foundation
Gregory Schneider, Esquire, Attorney, Squire Patton
Boggs (US) LLP, Phoenix, AZ, for Defendant-Appellee
Financial Industry Regulatory Authority, Inc.
Gregory Alan Davis, Esquire, Attorney, Squire,
Sanders & Dempsey, LLP, Phoenix, AZ, Gregory
Schneider, Esquire, Attorney, Squire Patton Boggs
(US) LLP, Phoenix, AZ, for Defendant-Appellee Scott
M. Anderson
Appeal from the United States District Court for the
District of Arizona, Roslyn O. Silver, District Judge,
Presiding, D.C. No. 2:14-cv-02490-ROS
Before: TASHIMA, GRABER, and OWENS, Circuit
Judges.
MEMORANDUM***
Plaintiffs John and Justine Hurry and several
business entities brought this action against
Defendants Financial Industry Regulatory Authority,
Inc. (“FINRA”) and Scott Andersen, alleging that
Defendants engaged in unlawful behavior arising
primarily out of FINRA’s investigation of some of the

This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
***

{00104473;2}

27a
Hurrys’ businesses. The district court dismissed most
of the claims and later granted summary judgment to
Defendants on the remaining claims. Plaintiffs timely
appeal, and we affirm.
1. The district court correctly held that regulatory
immunity bars many of Plaintiffs’ claims, including
those claims alleging that Defendants exceeded the
scope of their regulatory and investigatory
authority. See Northstar Fin. Advisors, Inc. v.
Schwab Invs., 904 F.3d 821, 828 (9th Cir.
2018) (holding that we review de novo a dismissal of
claims). Defendants are immune for actions taken
“under the aegis of the [Securities Exchange Act of
1934’s] delegated authority.” Sparta Surgical Corp. v.
Nat’l Ass’n of Sec. Dealers, Inc., 159 F.3d 1209, 1214
(9th Cir. 1998), overruled in other part by Merrill
Lynch, Pierce, Fenner & Smith Inc. v. Manning, –––
U.S. ––––, 136 S. Ct. 1562, 194 L.Ed.2d 671 (2016).
That immunity extends to Defendants’ investigatory
actions. See P’ship Exch. Sec. Co. v. Nat’l Ass’n of Sec.
Dealers, Inc., 169 F.3d 606, 608 (9th Cir.
1999) (“Sparta admits of no exceptions: if the action is
taken under the ‘aegis of the Exchange Act’s delegated
authority,’ the NASD [the National Association of
Securities Dealers, FINRA’s previous name] is
protected by absolute immunity from money
damages.” (quoting Sparta, 159 F.3d at 1214)); see
also id. at 607 (affirming regulatory immunity to the
NASD even though the plaintiffs alleged “that the
NASD, in its investigatory and administrative
actions, went beyond the scope of its authority and
ignored its disciplinary authority”).

{00104473;2}

28a
2. The district court correctly dismissed Plaintiffs’
claim under the Privacy Act of 1974, 5 U.S.C. § 552a.
The Act applies to records of natural persons only, and
only natural persons may sue under the Act. St.
Michael’s Convalescent Hosp. v. California, 643 F.2d
1369, 1373 (9th Cir. 1981). Before the district court,
and before us, Defendants argued that Plaintiffs
alleged disclosure of records of businesses only.
Plaintiffs’ failure to respond to that argument
constitutes waiver. O’Guinn v. Lovelock Corr. Ctr.,
502 F.3d 1056, 1063 n.3 (9th Cir. 2007); Smith v.
Marsh, 194 F.3d 1045, 1052 (9th Cir. 1999).
33. The district court correctly granted summary
judgment to Defendants on the leak-related
claims. See Buono v. Norton, 371 F.3d 543, 545 (9th
Cir. 2004) (holding that we review de novo a grant of
summary judgment). Both state-law claims require
that Plaintiffs prove that Defendants published a
statement. Watkins v. Arpaio, 239 Ariz. 168, 367 P.3d
72, 77 (Ariz. Ct. App. 2016) (false light); Dube v.
Likins, 216 Ariz. 406, 167 P.3d 93, 104 (Ariz. Ct. App.
2007) (defamation). Viewing the evidence in the light
most favorable to Plaintiffs, Plaintiffs have not done
“more than simply show that there is some
metaphysical doubt as to” whether Defendants leaked
information to the reporter. Matsushita Elec. Indus.
Co. v. Zenith Radio Corp., 475 U.S. 574, 586, 106 S.Ct.
1348, 89 L.Ed.2d 538 (1986).
Even discrediting the direct evidence that an
employee of one of the Hurrys’ businesses was the
reporter’s source for nearly all the information, the
reporter’s source is still unknown. No evidence in the
record helps a fact-finder decide whether the source
was a FINRA employee, an employee of the Securities

{00104473;2}

29a
and Exchange Commission, or a third party (such as
the reporter himself) who obtained the information
illicitly or by happenstance. Without any additional
evidence, all those options are equally plausible, and
only speculation could narrow the source down to
FINRA. “Mere allegation and speculation do not
create a factual dispute for purposes of summary
judgment.” Loomis v. Cornish, 836 F.3d 991, 997 (9th
Cir. 2016) (alteration omitted) (quoting Nelson v.
Pima Cmty. Coll., 83 F.3d 1075, 1081–82 (9th Cir.
1996)). We disagree with Plaintiffs that a reasonable
jury could conclude that FINRA engaged in a cover-up
with respect to the leaks alleged in this case.
3. The district court did not abuse its discretion by
denying Plaintiffs’ untimely request for additional
discovery. See Martinez v. Aero Caribbean, 764 F.3d
1062, 1066 (9th Cir. 2014) (holding that we review for
abuse of discretion a district court’s discovery rulings).
Plaintiffs waited more than five weeks after both the
original deposition and the expiration of discovery
before requesting the second deposition, even though
the district court had presided over a status hearing
in the meantime and had extended the discovery
deadline for other purposes.
AFFIRMED.

{00104473;2}

